Nos. 20-543, 20-544

 

IN THE

Supreme Court of the Anited States

JANET L. YELLEN, SECRETARY OF THE TREASURY,
PETITIONER,

v.

CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION,
ET AL.

ALASKA NATIVE VILLAGE CORPORATION ASSOCIATION, INC.
ET AL., PETITIONERS,

Vv.

CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION,
ETAL.

ON WRITS OF CERTIORARI
TO THE UNITED STATES OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

BRIEF FOR COOK INLET REGION, INC.
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

7,953 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

 

Wilson-Epes Printing Co., Inc.
